C'OCKLE
2311 Douglas Street A
Omaha, Nebraska 68102-1214
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-604

ERNEST L. FRANCWAY, JR.,
Petitioner,

v.
ROBERT WILKIE,

Legal Briefs

Est. 1923

SECRETARY OF VETERANS AFFAIRS,

Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of December, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE NATIONAL LAW SCHOOL
VETERANS CLINIC CONSORTIUM IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be

served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ANGELA K. DRAKE
Counsel of Record for Amicus Curiae
Director
THE VETERANS CLINIC
UNIVERSITY OF MISSOURI SCHOOL OF LAW
120 Hulston Hall
Columbia, Missouri 65211
573-882-7630
drakea@missouri.edu

JILLIAN BERNER.

Senior Staff Attorney

VETERANS LEGAL CLINIC

UIC JOHN MARSHALL LAW SCHOOL

HILLARY WANDLER

Professor

VETERANS ADVOCACY CLINIC
UNIVERSITY OF MONTANA

ALEXANDER BLEWETT III SCHOOL OF LAW

Subscribed and sworn to before me this 4th day of December, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 C Cll. Qdoawh, Cle

 

 

Notary Public

Affiant

39033
19-604 Amicus Curiae Service List

Michael E. Joffre

Counsel of Record

STERNE, KESSLER, GOLDSTEIN & FOX P.L.L.C.
1100 New York Avenue, NW

Washington, DC 20005

202-772-8856

mjoffre@sternekessler.com

Counsel for Petitioner Ernest L. Francway, Jr.

Noel Francisco

Counsel of Record

Solicitor General

United States Department of Justice

Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

(202-514-2217

SupremeCtBriefs@USDOJ.gov

Counsel for Respondent Robert Wilkie, Secretary of Veterans Affairs
